               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       U.S. Postal Service Past Network
            Optimization Initiatives

                       Audit Report




                                              January 9, 2012

Report Number CI-AR-12-003
                                                                          January 9, 2012

                                                              U.S. Postal Service Past
                                                       Network Optimization Initiatives

                                                           Report Number CI-AR-12-003




IMPACT ON:
Mail processing operations nationwide.     $229 million occurred because
                                           concurrent initiatives’ savings were
WHY THE OIG DID THE AUDIT:                 included with AMP consolidation
Our objective was to summarize best        savings. We noted that five of the
practices identified from our work with    33 PIRs (15 percent) did not achieve
area mail processing (AMP)                 projected savings, resulting in an
consolidations and any areas for           approximate $9.7 million annual savings
improvement.                               shortfall. Finally, there are 14 PIRs past
                                           due.
WHAT THE OIG FOUND:
We determined a valid business case        WHAT THE OIG RECOMMENDED:
exists for 31 of the 32 AMPs               We recommended the vice president,
(97 percent) we reviewed. These            Network Operations, establish a plan to
business cases were supported by           improve communication with
adequate capacity, increased efficiency,   stakeholders concerning the
reduced workhours and mail processing      consideration of stakeholder input
costs, and improved service standards.     provided to the Postal Service and
                                           improve the timeliness of conducting
Since fiscal year 2004, the Postal         PIRs.
Service has improved the AMP process
by updating feasibility studies and        WHAT MANAGEMENT SAID:
stakeholder communications. This           Management agreed with the
resulted in better data consistency,       recommendations and will enhance the
planning, and implementation; and a        Area Mail Processing Communication
better review process. We believe the      Plan to incorporate stakeholder input
AMP process could be further enhanced      concerning AMPs and will ensure
by improving communication with            resources are allocated to complete
stakeholders.                              PIRs timely.

We noted the projected AMP annual          AUDITORS’ COMMENTS:
savings for the 33 completed               The OIG considers management’s
post-implementation reviews (PIRs) was     comments responsive to the
approximately $94 million. The PIRs        recommendations and the corrective
indicate the Postal Service realized       actions should resolve the issues
annual savings of approximately            identified in the report.
$323 million. A variance of over           Link to review the entire report
January 9, 2012

MEMORANDUM FOR:           DAVID E. WILLIAMS
                          VICE PRESIDENT, NETWORK OPERATIONS

                                  E-Signed by Michael A. Magalski
                                  VERIFY authenticity with e-Sign


FROM:                     MICHAEL MAGALSKI
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Audit Report – U.S. Postal Service Past Network
                          Optimization Initiatives
                          (Report Number CI-AR-12-003)

This capping report summarizes the results of past U.S. Postal Service Office of
Inspector General (OIG) audits conducted on U.S. Postal Service network optimization
initiatives between fiscal year (FY) 2004 and FY 2011(Project Number
11WG006CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael L. Thompson, director,
Planning, Innovation, and Optimization, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Corporate Audit and Response Management
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                                             CI-AR-12-003


                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Business Case..................................................................................................................... 2

AMP Process ....................................................................................................................... 3

   Communication ................................................................................................................ 4

   AMP Guidelines ............................................................................................................... 5

Savings ................................................................................................................................ 6

Recommendations .............................................................................................................. 7

Management’s Comments .................................................................................................. 8

Evaluation of Management’s Comments ............................................................................ 8

Appendix A: Additional Information..................................................................................... 9

   Background ...................................................................................................................... 9

   Objective, Scope, and Methodology ............................................................................... 9

   Prior Audit Coverage ..................................................................................................... 11

Appendix B: Other Impact ................................................................................................. 14

Appendix C: AMPs Implemented Between FY 2004 – FY 2011 ..................................... 15

Appendix D: Management’s Comments ........................................................................... 18
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                         CI-AR-12-003


Introduction

This capping report summarizes the results of past U.S. Postal Service Office of
Inspector General (OIG) audits of U.S. Postal Service network optimization initiatives
between fiscal year (FY) 2004 and FY 2011 (Project Number 11WG006CI000). Our
objective was to summarize the best practices identified from our work with area mail
processing (AMP) consolidations and identify any areas for improvement. This
self-initiated audit addresses strategic, financial, and operational risks. See Appendix A
for additional information about this audit.

The AMP process begins with preparing a study to analyze the feasibility of relocating
mail processing operations from one location to another to improve capacity, efficiency,
and service. The Postal Service initiated 418 AMP studies 1 between FY 2004 and
FY 2011, 103 were implemented, 66 were halted, and 249 2 are in various stages of
approval (see Appendix C for a complete list of implemented AMPs). During the same
period, the OIG issued 39 related audit reports. Of these 39 reports, two were status
reports on the Postal Service’s network optimization initiatives, five were reports about
the AMP process, and 32 were related to consolidations. See Prior Audit Coverage for
the complete list of OIG AMP-related audit reports.

Of the 32 reports related to consolidations, 28 were on implemented AMPs, three were
on halted AMPs, and one was on the network optimization risk model. 3

Conclusion

We determined a valid business case exists for 31 of the 32 AMPs (97 percent) we
reviewed. These business cases were supported by adequate machine and facility
capacity, minimal customer service impact, increased efficiency, workhour and mail
processing cost reductions, and improved service performance. However, four 4 of the
31 AMPs supported by a valid business case were poorly executed. A valid business
case was not supported in one 5 of the 32 AMPS due to inadequate machine and facility
capacity, although this AMP would result in a cost savings.

Since FY 2004, the Postal Service has improved the AMP process 6 by updating the
criteria for creating AMP feasibility studies and stakeholder communications. This has

1
  The studies are based on updated lists provided by management through November 11, 2011.
2
  The Postal Service initiated 187 AMP studies from the September 15, 2011 announcement of the initiative to
streamline the mail processing network. We will issue a separate audit addressing these AMPs.
3
  In collaboration with management, the OIG developed an independent model to assess opportunities for mail
processing facility consolidations.
4
  The four poorly executed audits were Timeliness of Mail Processing at the Los Angeles, CA P&DC (Report Number
NO-AR-07-001, dated February 9, 2007), Marysville Processing and Distribution Facility (Report Number
EN-AR-08-003, dated April 16, 2008), Mojave Post Office Mail Processing Changes (Report Number EN-MA-10-002,
dated January 21, 2010); and Implementation of Lima, OH to Toledo, OH AMP Consolidation (Report Number
EN-AR-11-004, dated March 31, 2011).
5
 The one audit that did not support a valid business case was Oshkosh, WI Processing and Distribution Facility
Consolidation (NO-AR-11-006, dated July 29, 2011).
6
  The AMP process begins with preparing a study to analyze the feasibility of relocating mail processing operations
from one location to another to improve capacity, efficiency, and service.
                                                         1
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                             CI-AR-12-003


resulted in increased data consistency and accuracy, better planning and
implementation, and an improved review process. However, we believe the AMP
process could be further enhanced by improving the timeliness of Post-Implementation
Reviews 7 (PIRs) and stakeholder communications.

The total projected AMP annual savings for the 33 PIRs completed was approximately
$94 million. The PIRs indicate the Postal Service realized annual savings of
approximately $323 million, resulting in a variance of over $229 million. This variance
occurred because concurrent initiatives’ savings were included with AMP consolidation
savings. We noted that five of the 33 PIRs (15 percent) did not achieve their projected
savings, resulting in a savings shortfall of approximately $9.7 million. Management said
that four of the five PIRs did not achieve savings because the PIRs were conducted on
AMP proposals prepared prior to the automation of the AMP worksheets. 8 Finally, there
are 14 PIRs past due. Specifically, four PIRs were due on May 31, 2011, and ten PIRs
were due on August 31, 2011.

Business Case

Between FY 2004 and FY 2011, the OIG performed 32 audits on AMP consolidations.
Our previous work identified a valid business case for 31 of the 32 AMPs (97 percent).

Specifically, we reported that:

       Adequate capacity should exist to process additional mail volume at the gaining
        facilities.

       Customer service should be minimally impacted.

       Efficiency should improve at the gaining facility because of the additional mail
        volume.

       Projected workhour reductions should be achieved.

       Projected mail processing costs should be reduced at the gaining facility.

       Service standards should be maintained or improved.

However, four of the 31 AMPs supported by a valid business were poorly executed. 9



7
  PIRs provide a process to evaluate the effectiveness of consolidating mail processing operations by comparing the
projected savings/costs to the actual savings/costs after implementation. The first PIR is completed within 30 days
after the second full quarter following implementation, while the second (final) PIR is completed within 30 days after
the first full year of implementation.
8
  AMP worksheets are used to compile information to support the business case for consolidating operations.
9
  A poorly executed AMP results when management deviates from the original AMP proposal or underestimates
impact on service, or employees are unfamiliar with the AMP process.


                                                           2
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                       CI-AR-12-003


A valid business case was not supported in only one of the 32 AMPs due to inadequate
machine and facility capacity, although this AMP would result in a cost savings.

AMP Process

Since FY 2004 the Postal Service has improved the AMP process by updating the
criteria for creating AMP feasibility studies and stakeholder communications. This has
resulted in increased data consistency and accuracy, better planning and
implementation, and an improved review process. The Postal Service significantly
improved the AMP process in March 2008 with the publication of a revised
Handbook PO-408 10 and incorporated our recommendations from past audits. Our
audits conducted prior to guideline revisions identified improvements needed in the
AMP process. The previous issues included:

      AMP worksheets with inaccurate or incomplete data.

      Unclear guidance on how to calculate savings.

      Inconsistent methodology for calculating cost savings for workhours and staffing.

      Supporting documentation that was not always available or maintained in a
       central location.

      Local managers not trained on AMP policies and procedures.

      Stakeholder concerns regarding the timing of AMP communications and the
       validity of information provided.

The Postal Service also improved the AMP Communications Plan, which complements
Handbook PO-408. Management revised the plan in March 2008 to improve and
provide additional messaging to stakeholders to provide AMP process transparency.
Although the AMP process has improved, our past audit work continued to find errors in
proposed worksheets and issues with the notification process and responsiveness to
stakeholders.

AMP Worksheets

Based on our past recommendations, management improved the AMP worksheets. We
previously identified that more than half of our past audits (17 11 of 32, or 53 percent)
reported errors in the AMP worksheets, including:

      Incorrect entries for labor rates and mail volume.

10
   Handbook PO-408, Area Mail Processing Guidelines, provides a process for the review and implementation of
AMP proposals.
11
   From FY 2004 through FY 2008, there were nine audit reports; and from FY 2009 through FY 2011 there were
eight audit reports.


                                                       3
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                           CI-AR-12-003


      Incomplete worksheets.
      Inconsistent methodologies to determine cost savings.

In addition, our audit of the approved Wilkes-Barre, PA AMP 12 identified that controls
were not in place to prevent manual adjustments of the automated worksheets. The
audit of the approved Bowling Green, KY AMP 13 also identified missing and inaccurate
data resulting from manual entries for two different gaining facilities. Management is
taking actions to enhance the AMP worksheets.

Of the 32 audits performed, there was a net overstatement of $3.8 million in workhour
savings due to errors in the worksheets. Specifically, there were five proposed AMPs
with overstated workhour savings totaling $7.8 million and one PIR with understated
workhour savings totaling $4 million. The reported worksheet errors did not impact the
business decision to consolidate mail processing operations.

Communication

We reported various communication issues in 22 of our past AMP audits. These issues
included:

     AMP guidelines that did not provide an effective communication mechanism for
      affected employees to address questions and concerns.

     Concerns of stakeholders about when they were notified and what information was
      shared with them.

     Concerns about inadequate transparency and a perception that management does
      not consider public input when making decisions to consolidate operations.

In our Area Mail Processing Communications audit, 14 we noted the Postal Service
enhanced the AMP Communications Plan five times between April 1995 and March
2008. We recommended the Postal Service further enhance the plan through increased
communication with employees during the AMP process and increased use of
web-based communication for disseminating AMP details to stakeholders. The Postal
Service agreed with our recommendation concerning employees; however, they did not
agree to use a web-based communication process for stakeholders.

Even though the Postal Service made significant improvements to the AMP
Communications Plan, stakeholders continued to express concerns related to AMP
communications. We conducted 16 AMP audits because of Congressional requests
related to complaints from constituents about inadequate transparency and the lack of
Postal Service responsiveness.

12
   Review of the Wilkes-Barre, PA, Processing and Distribution Facility Consolidation (Report Number
NO-AR-11-001, dated October 4, 2010).
13
   Bowling Green, KY Consolidation (Report Number EN-AR-11-008, dated August 25, 2011).
14
   Area Mail Processing Communications (Report Number EN-AR-09-001, dated February 4, 2009).


                                                         4
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                         CI-AR-12-003



In discussions with management, they said the AMP Communications Plan provides
transparency on the status and timeline of the final decision to consolidate operations.
The strict stakeholder notification process ensures that stakeholders are notified at the
start of a study and updated, comments are solicited at the public meeting, and
stakeholders are informed when a final decision is made. However, management
acknowledged they could improve the process by sharing information regarding the
decision with respect to public input.

AMP Guidelines

There were 12 prior reviews which reported that the Postal Service could improve AMP
guidelines. We concluded that:

        AMP guidelines were incomplete and some procedures for addressing AMP issues
         were not contained or referenced in the guide.

        AMP guidelines were not always clear or followed.

        Local managers were not familiar with policies and procedures because they
         needed training on AMP procedures.

The Postal Service updated Handbook PO-408 in March 2008, incorporating our
recommendations from past audits; however, improvements are still needed.
Specifically, guidelines do not include the AMP worksheet business rules 15 used to
calculate projected workhours. For example, our audit of the Oshkosh, WI AMP 16 found
that the business rules which cap the productivity achievement at no greater than
5 percent was changed. Instead 10 percent was used. causing a projected
overstatement of $857,000 in workhour savings. However, management said the
business rules are not included in Handbook PO-408 to allow the flexibility to adjust the
rules — depending on operating conditions — and to manage mail processing
consolidation activities.




15
     The business rules determine workhours needed at the gaining facility.
16
     Oshkosh, WI Processing and Distribution Facility (Report Number NO-AR-11-006, dated July 29, 2011).


                                                          5
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                         CI-AR-12-003



Savings

The final step in the AMP process is the completion of PIRs to assess whether planned
savings, workhours, and levels of service were achieved. In addition, PIRs evaluate the
effectiveness of the consolidations by comparing the projected savings and costs to the
actual savings and costs after an implementation. The Postal Service has implemented
103 AMPs. Of these, 33 PIRs were completed, 14 were past due, 17 and one 18
management was not able to provide. The remaining 55 are due in FY 2012.

We compared the actual savings from the 33 PIRs available with the projected annual
savings in their corresponding AMPs. The Postal Service projected annual savings of
almost $94 million. However, based on PIR results, the Postal Service realized savings
of approximately $323 million, resulting in a variance of over $229 million (244 percent).
This variance occurred because other concurrent initiatives 19 were added to the AMP
consolidation savings. They included the concurrent savings in the PIRs, but these
savings were not directly related to the AMPs. We anticipate conducting an audit of the
PIR process and related savings calculations in the future.

Five of the 33 PIRs (15 percent) did not achieve projected annual savings. These five
PIRs revealed that the Postal Service realized a savings shortfall of approximately
$9.7 million. This occurred partly because labor savings were counted twice in one PIR.
The AMP savings estimates were not accurate and the Postal Service did not fully
realize the projected savings. Management said that four of the five PIRs did not
achieve savings because they were conducted on AMP proposals prepared prior to
automation of the AMP worksheets and contained inaccurate data used to calculate PIR
savings. In one PIR, the savings were not achieved because of the increased costs
resulting from the deployment of three flat sequencing systems to the gaining facility.
See Appendix B for a summary of AMP consolidation savings not achieved.

Management did not conduct PIRs on 14 of 33 (42 percent) implemented AMPs
following the time frames in Handbook PO-408. 20 Management said they are in the
process of completing these PIRs, which were delayed due to other priorities.
Management should conduct PIRs in a timely manner.




17
   According to management, these PIRs are in the process of being completed and were delayed due to other
priorities. Of the fourteen past due PIRs, four were due on May 31, 2011 and ten were due on August 31, 2011.
18
   Steubenville, OH Main Post Office consolidation of originating operations into the Youngstown, OH Processing and
Distribution Center was implemented May 1, 2004.
19
   Examples of concurrent initiatives not related to AMP savings were workhour savings from other mail processing
initiatives and the retirement incentive in 2009.
20
   States that an AMP must be reviewed twice after implementation.


                                                         6
U.S. Postal Service Past Network Optimization
 Initiatives                                                                 CI-AR-12-003


Recommendations

We recommend the vice president, Network Operations:

1. Establish a plan to improve the communication of information to stakeholders
   concerning the consideration of stakeholder input provided to the Postal Service.

2. Implement a control to improve the timeliness of conducting post-implementation
   reviews.




                                                7
U.S. Postal Service Past Network Optimization
 Initiatives                                                             CI-AR-12-003


Management’s Comments

Management agreed with our findings and recommendations and stated they will revise
the Area Mail Processing Communications Plan to incorporate stakeholder input
concerning AMPs. Management will implement this by June 2012. Management will
also ensure resources are allocated to complete PIRs timely. Management will
implement this beginning in March 2012. See Appendix D for management’s
comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report.




                                                8
U.S. Postal Service Past Network Optimization
 Initiatives                                                                     CI-AR-12-003


                              Appendix A: Additional Information

Background

The original audit objectives were to (1) summarize the best practices we have
identified from our work with AMP consolidations and any areas of improvement; and
(2) evaluate the strategic risks associated with the Postal Service’s initiative to close or
consolidate mail processing facilities, eliminate the overnight service standard for
First-Class Mail, increase the operating window for mail processing facilities, and impact
on employees. We are issuing a separate report for each audit objective because
management requested additional time to provide information related to the second
objective. This audit addresses the first objective.

The Postal Service uses Handbook PO-408 to consolidate mail processing operations
and to perform PIRs. AMP consolidations are designed to make more efficient use of
Postal Service assets. These began as local initiatives that managers used to reduce
costs and gain efficiencies by consolidating operations from a smaller facility into a
larger facility. The Postal Service expanded the AMP process to include a headquarters
initiated top-down process using computer modeling. The top-down process provides
increased flexibility and more consistent and standardized data analysis.

Between FY 2004 and FY 2011, the Postal Service initiated 418 AMP studies, 103 of
which were implemented. The Postal Service halted 66 studies due to service issues,
inadequate savings, and stakeholder opposition; and have 249 in various stages of
approval. During the same period, the OIG issued 39 audit reports concerning AMP
initiatives. The OIG issued two status reports on the Postal Service’s optimization
initiatives, five reports about the consolidation process, and 32 reports about individual
consolidations.

Objective, Scope, and Methodology

Our objective was to summarize the best practices we identified from our work with
AMP consolidations and identify any areas that need improvement. This report
summarizes the results of our audit work from FY 2004 through FY 2011. The OIG
issued 39 audit reports related to AMP consolidations, 32 of which were about individual
consolidations. We obtained AMP and PIR information from management for the same
period to calculate cost savings anticipated and achieved.

We conducted this performance audit from September through January 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our




                                                9
U.S. Postal Service Past Network Optimization
 Initiatives                                                           CI-AR-12-003


observations and conclusions with management on December 13, 2011 and included
their comments where appropriate.




                                                10
    U.S. Postal Service Past Network Optimization
     Initiatives                                                           CI-AR-12-003


    Prior Audit Coverage

                                                              Report     Final Report
                      Report Title                           Number          Date
Efficiency Review of the Mansfield, Ohio, Main Post      NO-AR-05-004   12/8/2004
Office
Efficiency Review of the Canton, Ohio, Processing        NO-AR-05-013   9/22/2005
and Distribution Facility
Area Mail Processing Guidelines                          NO-AR-06-001   12/21/2005
Status Report on the Evolutionary Network                NO-MA-06-001   3/20/2006
Development Initiative
Pasadena, California, Processing and Distribution        EN-AR-06-001   9/26/2006
Center Consolidation
Bridgeport, Connecticut, Processing and                  NO-AR-06-010   9/30/2006
Distribution Facility Outgoing Mail Consolidation
Sioux City, Iowa, Processing and Distribution            EN-AR-07-001   11/9/2006
Facility Consolidation
Service Implications of Area Mail Processing             EN-AR-07-002   12/5/2006
Consolidations
Timeliness of Mail Processing at the Los Angeles,        NO-AR-07-001   2/9/2007
California Processing Distribution Center
Steubenville - Youngstown, Ohio, Outgoing Mail           NO-AR-07-003   3/30/2007
Consolidation
Efficiency Review of the Bridgeport Processing and       NO-AR-07-004   4/25/2007
Distribution Facility – Bridgeport, Connecticut
Area Mail Processing Initiation Process                  EN-MA-07-001   6/26/2007
Bronx, New York, Processing and Distribution             EN-AR-07-003   7/18/2007
Center Consolidation
Post-Implementation Reviews of the Marina                EN-AR-07-004   8/14/2007
Processing and Distribution Center Area Mail
Processing Consolidation
Automated Area Mail Processing Worksheets                EN-MA-08-001   10/19/2007
Kansas City, Kansas, Processing and Distribution         EN-AR-08-001   1/14/2008
Center Consolidation
Marysville Processing and Distribution Facility          EN-AR-08-003   4/16/2008
Consolidation
Detroit, Michigan, Processing and Distribution           EN-AR-08-005   7/17/2008
Center Consolidation
Mojave Post Office Facility Consolidation                EN-AR-08-006   9/17/2008
Area Mail Processing Communications                      EN-AR-09-001   2/4/2009



                                                    11
    U.S. Postal Service Past Network Optimization
     Initiatives                                                                                            CI-AR-12-003


Canton Processing and Distribution Facility                           NO-AR-09-011                    9/22/2009
Outgoing Mail Consolidation
Status Report on the Postal Service’s Network                         EN-AR-10-001                    1/7/2010
Rationalization Initiative
Mojave Post Office Mail Processing Changes                            EN-MA-10-002                    1/21/2010
New Castle Processing and Distribution Facility                       NO-AR-10-002                    2/1/2010
Outgoing Mail Consolidation
Manasota Processing and Distribution Center                           EN-AR-10-003                    2/12/2010
Consolidation
Lakeland Processing and Distribution Center                           EN-AR-10-004                    2/12/2010
Consolidation
Dallas Processing and Distribution Center Outgoing                    NO-AR-10-003                    2/24/2010
Mail Consolidation
Consolidation of Lima Processing and Distribution                     NO-AR-10-007                    7/2/2010
Facility Mail Operations Into the Toledo Processing
and Distribution Center
Charlottesville Processing and Distribution Facility                  NO-AR-10-008                    8/3/2010
Consolidation
Southeast Area Processing and Distribution Center                     EN-AR-10-006                    9/17/2010
Consolidations
Review of Wilkes-Barre, PA, Processing and                            NO-AR-11-001                    10/4/2010
Distribution Facility Consolidation
Marysville, CA, Processing and Distribution Facility                  NO-AR-11-002                    11/23/2010
Consolidation
Houston, TX, Processing and Distribution Center                       NO-AR-11-004                    12/14/2010
Mail Consolidation
Columbus, GA, Customer Service Mail Processing                        NO-AR-11-005                    2/14/2011
Center Originating Mail Consolidation
Huntington, WV, Processing and Distribution                           EN-AR-11-003                    3/31/2011
Facility Consolidation
Implementation of Lima, OH to Toledo, OH, Area                        EN-AR-11-004                    3/31/2011
Mail Processing Consolidation
Beckley, WV Post Office Facility Consolidation                        EN-AR-11-005                    4/21/2011
Oshkosh, WI, Processing and Distribution Facility                     NO-AR-11-006                    7/29/2011
Consolidation
Bowling Green, KY, Consolidation                                      EN-AR-11-008                    8/25/2011
Flint, MI Processing and Distribution Center                          EN-AR-12-001                    10/6/2011
Consolidation 21

    21
      The OIG issued two final audit reports, one for the Flint, MI Processing and Distribution Center Consolidation on
    October 6, 2011; and one for the Industry, CA Processing and Distribution Center Original Mail Consolidation on
    October 17, 2011. These reports are not included in the 39 reports reviewed for this audit.


                                                             12
    U.S. Postal Service Past Network Optimization
     Initiatives                                                           CI-AR-12-003


Industry, CA Processing and Distribution Center          NO-AR-12-002   10/17/2011
Originating Mail Consolidation


    We conducted 41 prior audits related to AMP consolidations. We made 89
    recommendations, of which management agreed with 87. We reported monetary impact
    of $453,171,200.




                                                    13
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                              CI-AR-12-003


                                           Appendix B: Other Impact

                Finding                           Impact Category                              Amount
            AMP Savings                      Predicted Savings Shortfall 22                   $9,718,224
            Not Achieved


This impact is based on the Postal Service’s final PIRs conducted from FY 2004
through FY 2011 on implemented AMPs. Five of the 33 AMPs for which a PIR was
performed did not achieve the projected savings resulting in a predicted savings
shortfall of approximately $9.7 million. See table below for details on the final PIR
annual savings.

                                            Final PIR Annual Savings
     Losing         Gaining Facility            Type           AMP             Final PIR -      Variance       Percent
     Facility                                                Projected           Annual
                                                              Annual            Savings
                                                              Savings
Marina P&DC        Los Angeles & Long         Orig&Dest          $17,420,466    $10,200,774    $ (7,219,692)      -41.4
                   Beach P&DC
Mojave PO          Bakersfield P&DC           Originating           545,755         508,382         (37,373)       -6.8

Newark P&DC        Dominick V. Daniels &      Originating          3,959,581      3,086,832        (872,749)      -22.0
                   Northern Metro P&DC
St Petersburg      Tampa P&DC                 Originating          4,679,882      3,594,847      (1,085,035)      -23.2
P&DC
Winchester PO      Dulles P&DC                Orig&Dest            1,583,944      1,080,569        (503,375)      -31.8

                                    Total                    $ 28,189,628      $ 18,471,404    $ (9,718,224)      -34.5




22
  The difference between the savings the Postal Service predicted for a project (such as capital investment,
consolidation, etc.) and the actual savings realized or the OIG’s estimate of savings which will be realized.


                                                            14
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                   CI-AR-12-003



              Appendix C: AMPs Implemented Between FY 2004 – FY 2011

     Area   Losing Facility        State   Gaining Facility                         State     Type        FY
 1   SW     Alexandria P&DF         LA     Shreveport P&DC                           LA     Orig&Dest     2011
 2    SE    Athens CSPMC           GA      North Metro P&DC                          GA     Originating   2010
 3    SW    Batesville CSMPC       AR      Northeast Arkansas P&DF                   AR     Orig&Dest     2011
 4    SW    Beaumont P&DF           TX     North Houston P&DC                        TX     Originating   2011
 5    EA    Beckley P&DF           WV      Charleston P&DC                          WV      Orig&Dest     2011
 6    NE    Binghamton P&DF         NY     Syracuse P&DC                             NY     Originating   2010
 7    GL    Bloomington P&DC        IN     Indianapolis P&DC                         IN     Originating   2010
 8    EA    Bowling Green P&DF      KY     Nashville P&DC & Evansville P&DF         TN/IN   Originating   2011
 9    NE    Bridgeport P&DF         CT     Stamford P&DC                             CT     Originating   2006
10    EA    Bristol P&DF            VA     Johnson City P&DF                         TN     Orig&Dest     2011
11    SW    Bryan P&DF              TX     North Houston P&DC                        TX     Originating   2011
12    EA    Canton P&DC            OH      Akron P&DC                                OH     Originating   2009
13    NE    Cape Cod P&DF          MA      Brockton P&DC                             MA     Originating   2010
14    CM    Charlottesville P&DF    VA     Richmond P&DC                             VA     Orig&Dest     2010
15    WE    Colby CSMPC             KS     Salina CSMPC                              KS     Originating   2011
16    SW    Columbus CSMPC         GA      Macon P&DC                                GA     Originating   2010
17    SW    Dallas P&DC             TX     North Texas P&DC                          TX     Originating   2010
18    SW    Daytona Beach P&DF      FL     Mid-Florida P&DC                          FL     Orig&Dest     2011
19    WE    Decorah CSMPC           IA     Waterloo P&DF                             IA     Orig&Dest     2011
20    GL    Detroit P&DC            MI     Michigan Metroplex P&DC                   MI     Originating   2010
21    CM    Dulles P&DC             VA     Northern Virginia P&DC                    VA     Originating   2010
22    WE    Flagstaff CSMPC         AZ     Phoenix P&DC                              AZ     Orig&Dest     2011
23    GL    Flint P&DC              MI     Michigan Metroplex P&DC                   MI     Originating   2009
24    WE    Fort Dodge CSMPC        IA     Des Moines P&DC                           IA     Orig&Dest     2011
25    WE    Fort Scott CSMPC        KS     Kansas City P&DC                         MO      Orig&Dest     2011
26    SW    Fort Smith CSMPC        AR     Northwest Arkansas P&DF                   AR     Orig&Dest     2011
27    GL    Fox Valley P&DC         IL     South Suburban P&DC                       IL     Originating   2011
28    CM    Frederick P&DC         MD      Suburban P&DC                            MD      Originating   2010
29    WE    Gillette CSMPC         WY      Casper P&DF                              WY      Orig&Dest     2011
            Glenwood Springs
      WE                           CO      Grand Junction P&DF                       CO
30          CSMPC                                                                           Orig&Dest     2011
31    WE    Globe CSMPC             AZ     Phoenix P&DC                              AZ     Orig&Dest     2011
32    EA    Greensburg PO           PA     Pittsburgh P&DC                           PA     Originating   2006
33    SW    Harrison P&DF           AR     Northwest Arkansas P&DF                   AR     Originating   2011
34    WE    Havre CSMPC            MT      Great Falls P&DF                          MT     Orig&Dest     2011
35    WE    Hays CSMPC              KS     Salina CSMPC                              KS     Originating   2011
36    CM    Hickory P&DF           NC      Greensboro P&DC                          NC      Originating   2010
37    EA    Huntington P&DF        WV      Charleston P&DC                          WV      Orig&Dest     2011
38    WE    Hutchinson CSMPC        KS     Wichita P&DC                              KS     Originating   2011
39    WE    Independence CSMPC      KS     Wichita P&DC                              KS     Orig&Dest     2011
40    EA    Jackson CSMPC           TN     Memphis P&DC                              TN     Originating   2010
41    GL    Kalamazoo P&DC          MI     Grand Rapids P&DC                         MI     Originating   2010
42    WE    Kansas City P&DC        KS     Kansas City P&DC                         MO      Orig&Dest     2009
43    NY    Kilmer P&DC             NJ     Dominick V Daniels P&DC & Trenton P&DC    NJ     Originating   2011
44    EA    Kinston P&DF           NC      Fayetteville P&DC                         NC     Originating   2010
45    WE    Klamath Falls CSMPC    OR      Medford CSMPC                             OR     Orig&Dest     2011
46    GL    Lafayette P&DF          IN     Kokomo P&DF                               IN     Originating   2011




                                                          15
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                        CI-AR-12-003


47    SE    Lakeland P&DC           FL   Tampa P&DC                                       FL     Originating   2009
48    WE    Las Cruces CSMPC        NM   El Paso P&DC                                     TX     Orig&Dest     2011
49    EA    Lima P&DF               OH   Toledo P&DC                                      OH     Orig&Dest     2011
50    EA    London P&DF             KY   Lexington P&DC                                   KY     Originating   2010
51    PA    Long Beach P&DC         CA   Santa Ana P&DC                                   CA     Originating   2009
52    SW    Lufkin P&DF             TX   East Texas P&DC                                  TX     Originating   2011
53    EA    Lynchburg P&DF          VA   Roanoke P&DC                                     VA     Originating   2011
54    SE    Manasota P&DC           FL   Tampa P&DC                                       FL     Originating   2010
55    PA    Marina P&DC             CA   Los Angeles P&DC & Long Beach P&DC               CA     Orig&Dest     2005
56    PA    Marysville P&DF         CA   Sacramento P&DC                                  CA     Originating   2006
57    PA    Marysville P&DF         CA   Sacramento P&DC                                  CA     Orig&Dest     2010
58    SW    Meridian CSMPC          MS   Jackson P&DC                                     MS     Destinating   2011
59    WE    Miles City CSMPC        MT   Billings P&DC                                    MT     Orig&Dest     2011
60    PA    Mojave PO               CA   Bakersfield P&DC                                 CA     Originating   2007
61    PA    Mojave PO               CA   Bakersfield P&DC                                 CA     Destinating   2010
62    NY    Monmouth P&DC           NJ   Trenton & Kilmer P&DCs                           NJ     Orig&Dest     2006
63    GL    Muncie P&DF             IN   Kokomo P&DF                                      IN     Originating   2011
64    EA    New Castle P&DF         PA   Pittsburgh P&DC                                  PA     Originating   2010
65    NY    Newark P&DC             NJ   Dominick V Daniels P&DC & Northern Metro P&DC    NJ     Orig&Dest     2007
66    NY    Newark PO               NJ   Dominick V Daniels P&DC                          NJ     Destinating   2010
67    NE    Northwest Boston P&DC   MA   Boston P&DC                                      MA     Originating   2006
68    WE    Olympia P&DF            WA   Tacoma P&DC                                      WA     Originating   2007
69    GL    Oshkosh P&DC            WI   Green Bay P&DC                                   WI     Orig&Dest     2011
70    PA    Oxnard P&DF             CA   Santa Clarita P&DC                               CA     Originating   2010
71    PA    Oxnard P&DF             CA   Santa Barbara P&DC                               CA     Destinating   2011
72    GL    Palatine P&DC           IL   Carol Stream P&DC                                IL     Originating   2010
73    SW    Panama City P&DF        FL   Pensacola P&DC                                   FL     Originating   2010
74    PA    Pasadena P&DC           CA   Santa Clarita & Industry P&DCs                   CA     Originating   2006
75    NE    Portsmouth P&DF         NH   Manchester P&DC                                  NH     Originating   2009
76    NE    Portsmouth P&DF         NH   Manchester P&DC & Southern Maine P&DC           NH/ME   Destinating   2011
77    NY    Queens P&DC             NY   Brooklyn P&DC                                    NY     Originating   2010
78    EA    Reading P&DF            PA   Harrisburg P&DC & Lehigh Valley P&DC             PA     Originating   2011
79    WE    Riverton CSMPC          WY   Casper P&DF                                      WY     Orig&Dest     2011
80    SW    Russellville CSMPC      AR   Little Rock P&DC                                 AR     Orig&Dest     2011
81    PA    Salinas P&DF            CA   San Jose P&DC                                    CA     Destinating   2011
82    WE    Sheridan CSMPC          WY   Casper P&DF                                      WY     Orig&Dest     2011
83    WE    Show Low CSMPC          AZ   Phoenix P&DC                                     AZ     Orig&Dest     2011
84    WE    Sioux City P&DF         IA   Sioux Falls P&DC                                 SD     Orig&Dest     2011
85    SE    South Florida P&DC      FL   Fort Lauderdale & Miami P&DCs                    FL     Originating   2010
86    SE    St Petersburg P&DC      FL   Tampa P&DC                                       FL     Originating   2008
87    NY    Staten Island P&DF      NY   Brooklyn P&DC                                    NY     Originating   2009
88    EA    Steubenville P&DF       OH   Youngstown P&DC                                  OH     Originating   2004
89    PA    Stockton P&DC           CA   Sacramento P&DC                                  PA     Originating   2011
90    SW    Texarkana P&DF          TX   Shreveport P&DC                                  LA     Orig&Dest     2011
91    WE    Twin Falls CSMPC        ID   Boise P&DC                                       ID     Orig&Dest     2011
92    SW    Victoria CSMPC          TX   Corpus Christi P&DC                              TX     Destinating   2011
93    NE    Waterbury P&DF          CT   Southern Connecticut P&DC                        CT     Originating   2006
94    NE    Watertown PO            NY   Syracuse P&DC                                    NY     Orig&Dest     2010
95    NY    West Jersey P&DC        NJ   Northern New Jersey Metro & Kilmer P&DCs         NY     Destinating   2011
96    NY    West Jersey P&DC        NJ   Dominck V Daniels P&DC                           NJ     Originating   2004
97    NY    Western Nassau P&DC     NY   Mid-Island P&DC                                  NY     Originating   2010



                                                         16
U.S. Postal Service Past Network Optimization
 Initiatives                                                                                              CI-AR-12-003


98     EA       Wheeling P&DF              WV     Pittsburgh P&DC                                 PA   Originating   2010
99     SW       Wichita Falls MPA          TX     Fort Worth P&DC                                 TX   Orig&Dest     2011
100     EA      Wilkes-Barre P&DF          PA     Scranton & LeHigh Valley P&DCs                  PA   Orig&Dest     2010
101    CM       Winchester PO              VA     Dulles P&DC                                     VA   Orig&Dest     2010
102    WE       Worland CSMPC              WY     Casper P&DF                                     WY   Orig&Dest     2011
103     EA      Zanesville P&DC            OH     Columbus P&DC                                   OH   Orig&Dest     2011


Abbreviations

Area                                            Facility/Type
CM – Capital Metro                              CSMPC – Customer Service Mail Processing Center
EA – Eastern                                    MPA – Mail Processing Annex
GL – Great Lakes                                PO – Post Office
NE – Northeast                                  P&DC – Processing and Distribution Center
NY – New York                                   P&DF – Processing and Distribution Facility
PA – Pacific                                    Orig/Dest – Originating and Destinating
SE – Southeast
SW – Southwest
WE – Western

See following website for state abbreviations: http://www.stateabbreviations.us/




                                                                 17
U.S. Postal Service Past Network Optimization
 Initiatives                                                   CI-AR-12-003


                           Appendix D: Management’s Comments




                                                18
U.S. Postal Service Past Network Optimization
 Initiatives                                         CI-AR-12-003




                                                19
